No. 19In the

DeWayne D. Knight,
Petitioner
v.
Thomas Grossman, Jr., M.D.,
Respondent
On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Seventh Circuit
PETITION FOR A WRIT OF CERTIORARI

Emily J. Greb
Counsel of Record
Michelle M. Umberger
Michael R. Laing
PERKINS COIE LLP
33 East Main Street, Suite 201
Madison, WI 53703-3095
EGreb@perkinscoie.com
(608) 663-7460
Counsel for Petitioner
DeWayne D. Knight

-iQUESTION PRESENTED
Whether a claim for violation of a prisonerpatient’s Fourteenth Amendment right to informed
consent requires a showing of deliberate
indifference and proof of refusal or whether the
approach adopted by a majority of circuits should
control, which applies a balancing test weighing, on
one hand, the state’s interests in providing for the
basic needs of prisoners and, on the other hand, the
prisoner’s right to such information as is
reasonably necessary to make an informed decision
to accept or reject proposed treatment as well as a
reasonable explanation of the viable alternative
treatments available.

-iiRELATED CASES STATEMENT
DeWayne D. Knight v. Thomas Grossman, Jr.,
M.D., No. 2:16-cv-01644, U.S. District Court for the
Eastern District of Wisconsin. Judgment entered
March 21, 2019.
DeWayne D. Knight v. Thomas W. Grossman, Jr.,
M.D., No. 19-1740, U.S. Court of Appeals for the
Seventh Circuit. Judgment entered October 31,
2019. Petition for Rehearing En Banc denied
December 17, 2019.

-iiiTABLE OF CONTENTS
Page
QUESTION PRESENTED ...................................... i
RELATED CASES STATEMENT .......................... ii
TABLE OF CONTENTS ........................................ iii
TABLE OF AUTHORITIES ................................... v
PETITION FOR A WRIT OF CERTIORARI ......... 1
OPINIONS BELOW................................................ 1
JURISDICTION ...................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .......................... 1
STATEMENT OF THE CASE ................................ 3
REASONS FOR GRANTING THE
PETITION .................................................... 4
I.
This Court Should Reject the
Second and Seventh Circuits’
Introduction of a Deliberate
Indifference Standard to
Informed Consent Doctrine ............... 4
II.
The Seventh Circuit Now Sits
Contrary to the Majority of
Circuits in Its Informed
Consent Analysis ............................... 5
III.
The Seventh Circuit’s Cursory
Adoption of the Deliberate
Indifference Standard Created
an Impractical Legal
Framework that is Contrary to
Cruzan ................................................ 9

-ivIV.

Deliberate Indifference Analysis
Nullifies the Right to Informed
Consent ............................................ 11
V.
Requiring an Affirmative
Demonstration of Refusal at
Summary Judgment Was
Procedurally Improper .................... 14
CONCLUSION ...................................................... 15
APPENDIX A: Opinion of the United States
Court of Appeals for the
Seventh Circuit, dated
October 31, 2019 ......................... 1a
APPENDIX B: Decision and Order from the
United States District Court
for the Eastern District of
Wisconsin, dated March 21
2019 .......................................... 17a
APPENDIX C: Order from the United States
Court of Appeals for the
Seventh Circuit Denying
Rehearing En Banc, dated
December 17, 2019 ................... 40a

-vTABLE OF AUTHORITIES
CASES

Page(s)

Bee v. Greaves,
744 F.2d 1387 (10th Cir. 1984)........................... 7
Benson v. Terhune,
304 F.3d 874 (9th Cir. 2002) .............................. 7
Cnty. of Sacramento v. Lewis
523 U.S. 833 (1998)............................................. 9
Cruzan v. Director, Mo. Dept. of Health,
497 U.S. 261, 110 S.Ct. 2841 (1990).......... passim
Lewis v. Casey,
518 U.S. 343 (1996)........................................... 14
McDowell v. Vill. of Lansing,
763 F.3d 762 (7th Cir. 2014) .............................. 9
Pabon v. Wright,
459 F.3d 241 (2d Cir. 2006) .......................8, 9, 14
Sama v. Hannigan,
669 F.3d 585 (5th Cir. 2012) ........................ 7, 13
Schloendorff v. Soc’y of N.Y. Hosp.,
105 N.E. 92, 93 (N.Y. 1914) .............................. 11
Union Pac. R.R. Co. v. Botsford,
141 U.S. 250, 11 S.Ct. 1000,
35 L.Ed. 734 (1891) ........................................... 11
United States v. Charters,
829 F.2d 479 (4th Cir. 1987) .......................... 6, 7

-viTABLE OF AUTHORITIES
(Continued)

Page(s)

Washington v. Harper,
494 U.S. 210, 110 S.Ct. 1028, 108
L.Ed.2d 178 (1990) .....................................6, 7, 11
White v. Napoleon,
897 F.2d 103 (3d Cir. 1990) ............................ 6, 7
Whiting v. Wexford Health Sources, Inc.,
839 F.3d 658 (7th Cir. 2016) ............................ 10
STATUTES
28 U.S.C. § 1254 ....................................................... 1
42 U.S.C. § 1983 ....................................................... 4

-1PETITION FOR A WRIT OF CERTIORARI
Petitioner DeWayne D. Knight respectfully
petitions for a writ of certiorari to review the
judgment of the United States Court of Appeals for
the Seventh Circuit in this case.
OPINIONS BELOW
The opinion of the court of appeals for the
Seventh Circuit, DeWayne D. Knight v. Thomas W.
Grossman, Jr., M.D., No. 19-1740, entered October
31, 2019, is reprinted at Appendix A. The decision
and order of the district court, DeWayne D. Knight
v. Thomas Grossman, Jr., M.D., No. 2:16-cv-01644,
entered March 21, 2019, is reprinted at Appendix
B. The order of the court of appeals denying
rehearing en banc, dated December 17, 2019, is
reprinted at Appendix C.
JURISDICTION
The judgment of the court of appeals was
entered on October 31, 2019. The order denying
rehearing en banc was entered on December 17,
2019. This Court’s jurisdiction rests on 28 U.S.C.
§ 1254 (1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
The Fourteenth Amendment to the United
States Constitution (U.S. Const. Amend. XIV)
provides, in pertinent part: “No State shall make
or enforce any law which shall abridge the
privileges or immunities of citizens of the United

-2States; nor shall any State deprive any person of
life, liberty, or property, without due process of law;
nor deny to any person within its jurisdiction the
equal protection of the laws.”

-3STATEMENT OF THE CASE
Clarity and uniformity among the circuits on
a constitutional right is demonstrably needed to
resolve a circuit split related to a prisoner’s right to
informed consent.
This petition arises from an unfortunate
moment of surprise. Petitioner DeWayne Knight, a
prisoner, learned that, unbeknownst to him, he had
received an elective surgery which he had not
discussed with a physician, had not consented to,
and did not need.
To explain, Mr. Knight was experiencing
significant knee pain. App. B at 21a. He was seen
by Respondent Dr. Thomas Grossman and
diagnosed with a torn anterior cruciate ligament
(ACL). Id.
Following a discussion with Dr.
Grossman related to surgically repairing his
supposedly torn ACL, Mr. Knight signed a consent
form which authorized the ACL reconstruction and
allowed Dr. Grossman to address “unforeseen
conditions [that] ar[o]se” during the procedure only
if “necessary and advisable.” ECF No. 46-8.
Upon beginning surgery, Dr. Grossman
observed a different condition than he had
diagnosed: Mr. Knight’s ACL was intact and
functional. App. A at 3a. Dr. Grossman observed
other issues with the knee, which he attributed to
arthritis. Id. Dr. Grossman made the unilateral
decision while Mr. Knight was under anesthesia to
proceed with a different, elective, surgical
procedure on Mr. Knight’s knee, without discussing
the new diagnosis or available treatment options
with Mr. Knight. Id. Arthritis is not an emergency
medical condition requiring immediate treatment,

-4nor is it life-threatening. ECF No. 46-1, at 100:23101:6.
Mr. Knight filed suit under 42 U.S.C. § 1983,
claiming violations of his Eighth and Fourteenth
Amendment rights. Dr. Grossman moved for
summary judgment on both claims, and the district
court granted his motion. On appeal, the Court of
Appeals for the Seventh Circuit affirmed and
adopted, for the first time, a deliberate indifference
standard from the Second Circuit without
acknowledging its uniqueness from the analyses of
other circuits. App. A at 11a-16a. Indeed, no other
circuit requires a deliberate indifference standard
when analyzing a violation of the right to informed
consent. The Seventh Circuit also adopted the
Second Circuit’s requirement that the prisonerpatient prove he would have refused the medical
treatment in question. Id. Mr. Knight now petitions
for reversal to address the circuit split and correctly
apply the proper standard to Mr. Knight’s case.
REASONS FOR GRANTING THE PETITION
I.

This Court Should Reject the Second
and Seventh Circuits’ Introduction of a
Deliberate Indifference Standard to
Informed Consent Doctrine

The majority of circuits that have addressed
a prisoner-patient’s Fourteenth Amendment right
to informed consent—the Third, Fourth, Fifth,
Ninth, and Tenth Circuits—employ the balancing
test laid out by this Court in Cruzan v. Director,
Missouri Department of Health, 497 U.S. 261
(1990). These circuits’ approach addresses, on the
one hand, the state’s interests in providing for the
basic needs of prisoners and, on the other hand, the
prisoner’s right to such information as is

-5reasonably necessary to make an informed decision
to accept or reject proposed treatment as well as a
reasonable explanation of the viable alternative
treatments available.
In contrast, the minority of circuits—the
Second and Seventh Circuits—employ a test with
an extra requirement: a finding that the official’s
failure to obtain informed consent was undertaken
with deliberate indifference to the prisoner’s right
to refuse unwanted medical treatment. This
additional requirement should be rejected by this
Court upon full briefing on the merits.
This Court’s direction on the constitutional
right to informed consent is therefore needed by
courts on both sides of the circuit split to uniformly
apply the proper test to determine whether this
right has been violated.
II.

The Seventh Circuit Now Sits Contrary
to the Majority of Circuits in Its
Informed Consent Analysis

Prior to Mr. Knight’s case, the Seventh
Circuit had not yet recognized or decided the scope
of a due process right to informed consent. In the
proceedings below, the Seventh Circuit held that,
despite having a right to informed consent that
includes (1) a right to refuse treatment and (2) a
right to receive information required to decide
whether to refuse treatment (both consistent with
earlier decisions of this and other courts), these
rights were not violated where Mr. Knight, while
unconscious, received a nonconsensual, nonemergency surgery to address a diagnosis he had
not yet received or discussed with the operating
physician because the physician’s failure to obtain
Mr. Knight’s informed consent was not undertaken

-6with deliberate indifference. In so holding, the
Seventh Circuit adopted the test of a lone outlier in
a circuit split. The Seventh Circuit’s decision
nullifies the right to informed consent for all
prisoner-patients in the Seventh Circuit and must
be reversed.
That is, in the Second and Seventh Circuits,
despite having a supposed right to informed
consent that includes a right to refuse treatment, a
prisoner-patient may consent to one surgery and
wake to find that the operating physician had
unilaterally decided to perform a separate surgery
for an unrelated and new diagnosis of a separate
ailment so long as the physician claims he or she
did not deliberately intend to cause harm. App. A
at 10a, 16a. The constitutionally protected right to
informed consent is inconsistent with this scenario,
and the Seventh Circuit’s holding below must be
corrected as it furthers a circuit split that
contradicts the precedent of this Court and the
majority of circuits. See Cruzan, 497 U.S. at 269-70,
277-79 (recognizing a Fourteenth Amendment right
to informed consent that includes a right to refuse
treatment); Washington v. Harper, 494 U.S. 210,
221-22 (1990) (holding that prisoners retain a
liberty interest in refusing forced medical
treatment while incarcerated); White v. Napoleon,
897 F.2d 103, 113 (3rd Cir. 1990) (holding that
prisoners retain a limited right to refuse treatment
and a related right to be informed of the proposed
treatment and viable alternatives that is
circumscribed by legitimate countervailing State
interests); United States v. Charters, 829 F.2d 479,
484, 490-492 (4th Cir. 1987) (“We conclude that a
mentally ill pretrial detainee has a constitutionally
protected interest in deciding for himself whether
to accept or forego medical treatment. Where the
detainee is competent to consent to or refuse

-7medical care, his constitutional interest in making
such decisions outweighs the government's interest
in medicating him against his will.”); Sama v.
Hannigan, 669 F.3d 585, 591 n.13 (5th Cir. 2012)
(recognizing a Fourteenth Amendment liberty
interest in refusing unwanted medical treatment);
Benson v. Terhune, 304 F.3d 874, 884 (9th Cir.
2002) (“the due process clause of the Fourteenth
Amendment substantively protects a person’s
rights to be free from unjustified intrusions to the
body, to refuse unwanted medical treatment and to
receive sufficient information to exercise these
rights intelligently.” (internal citations omitted));
Bee v. Greaves, 744 F.2d 1387, 1392-94 (10th Cir.
1984) (holding that pretrial detainees retain a
constitutional liberty interest in avoiding unwanted
medication with antipsychotic drugs).
The Seventh Circuit now sits contrary to the
Third, Fourth, Fifth, Ninth, and Tenth Circuits,
and in accord with only the Second, in requiring
deliberate indifference to a prisoner-patient’s right
to have information about and refuse medical
treatment under the Fourteenth Amendment. The
majority of circuits uniformly do not require a
showing of deliberate indifference. Instead, these
circuits hold that prisoners retain a limited right to
refuse treatment and a related right to be informed
of the proposed treatment and viable alternatives,
subject to legitimate countervailing state interests.
White, 897 F.2d at 113; Charters, 829 F.2d at 49293; Sama, 669 F.3d at 591; Benson, 304 F.3d at
884; Greaves, 744 F.2d at 1394-95. Imposition of an
additional deliberate indifference standard nullifies
this right to informed consent and the right to
refuse treatment recognized by this Court in
Cruzan and Washington. Cruzan, 497 U.S. 261 at
269-70, 277-79; Washington, 494 U.S. at 221-22.

-8In the decision below, the Seventh Circuit
incorporated a “deliberate indifference” standard—
copied from the Second Circuit’s decision in Pabon
v. Wright, 459 F.3d 241 (2d Cir. 2006) and derived
from the Eighth Amendment—to the Fourteenth
Amendment right to informed consent, setting forth
an unnecessarily heightened standard to find a
violation of the right to informed consent. The
adopted standard also requires that a patient prove
they would have refused the treatment. App. A at
15a. Specifically, the test adopted by the Seventh
Circuit requires:
(1) the
patient
was
deprived
of
information that a reasonable patient
would deem necessary to make an
informed decision about his medical
treatment;
(2) the defendant acted with deliberate
indifference to the prisoner’s right to
refuse treatment; and
(3) if the prisoner had received the
information, he would have refused
the treatment.
Id.
Following its adoption of this standard, the
court found against Mr. Knight because the
Seventh Circuit “question[ed] whether Knight has
sufficiently shown that Dr. Grossman was
deliberately indifferent to his right to refuse
treatment,” and because it found that Knight failed
to show that he would have refused the procedure.
Id. at 16a. These conclusions were in error because
incorporating a deliberate indifference standard in
a Fourteenth Amendment right to informed consent

-9is untenable, and the specific required proof of
refusal as the nonmovant at summary judgment is
improper.
III.

The Seventh Circuit’s Cursory Adoption
of the Deliberate Indifference Standard
Created an Impractical Legal
Framework that is Contrary to Cruzan

Imposing a deliberate indifference standard
on this right, as the Second and (now) Seventh
Circuits do, is an unfair burden on prisonerpatients that runs contrary to the analyses of each
other circuit and nullifies both the right to
informed consent and the precedent of this Court.
Indeed, the circuit minority’s extra deliberate
indifference requirement is unnecessary because
the circuit majority’s analysis already considers the
interests of the physician/state and balances those
interests, per Cruzan, against the prisonerpatient’s right to receive medical information to
decide, for his or herself, whether the treatment is
desirable.
The decision below failed to clearly define or
analyze a deliberate indifference standard in its
holding, referring to it in dicta only as described in
Pabon: as behavior that “shock[s] the conscience.”
Id. at 13a (citing Cnty. of Sacramento v. Lewis, 523
U.S. 833, 848-49 (1998); McDowell v. Vill. of
Lansing, 763 F.3d 762, 766 (7th Cir. 2014)). This
subjective definition is objectionable for its lack of
clarity and misleading irrelevancy: Pabon
referenced
cases
where
executive
action
constituting abuse of power “shock[ed] the
conscience,” and contrasted this test with, “[b]y
contrast, in situations where actual deliberation is
possible….” Pabon, 459 F.3d at 251.

-10Ostensibly, the Seventh Circuit’s definition
of deliberate indifference is the same as that
previously ascribed to the Eighth Amendment:
requiring the official know “facts from which he
could infer that a substantial risk of serious harm
exists, and he must actually draw the inference.”
Whiting v. Wexford Health Sources, Inc., 839 F.3d
658, 662 (7th Cir. 2016). Within the Eighth
Amendment context, adoption of this definition is
reasonable as the decision describes: “[a] physician
is deliberately indifferent to a patient’s right to
refuse treatment if the doctor subjectively knows
that the patient did not consent to the treatment or
that the patient would want to know the medical
information being withheld in order to decide
whether to refuse the treatment.” App. A at 14a.
But incorporation of this same standard in
the Fourteenth Amendment context is impractical,
requiring the official know facts from which he
could infer that there exists a substantial risk of
harm to a patient’s right to informed consent. Id.;
Whiting, 839 F.3d at 662. This requirement
detracts from the Fourteenth Amendment right
itself, as its only effect is to nullify what is
otherwise sufficient for a Fourteenth Amendment
violation (absent a countervailing state interest).
That is, after establishing that a patient was
deprived of information he or she would reasonably
deem necessary to make an informed decision (a
per se violation of informed consent), that
conclusion is ignored if the prisoner-patient does
not prove that the physician was deliberately
indifferent to this deprivation. In nearly all
instances, this will negate a finding that a patient’s
right to informed consent under the Fourteenth
Amendment was violated, a result in opposition to
that which would be found in other circuits and in

-11the decisions of Cruzan and Washington. The
perspective of the physician/official in determining
what a reasonable patient would deem necessary to
make an informed decision about their medical
treatment should be relevant only insofar as it
bears on countervailing state interests.
IV.

Deliberate Indifference Analysis
Nullifies the Right to Informed Consent

The Second and Seventh Circuits’ misplaced
analysis stands in stark contrast to the founding
principles of informed consent and its “logical
corollary,” the right to refuse treatment. Cruzan,
497 U.S. at 169. As described in Cruzan: “[e]very
human being of adult years and sound mind has a
right to determine what shall be done with his own
body; and a surgeon who performs an operation
without his patient’s consent commits an assault,
for which he is liable in damages.” Cruzan, 497
U.S. at 269 (quoting Schloendorff v. Soc’y of N.Y.
Hosp., 105 N.E. 92, 93 (N.Y. 1914)). Allowing the
physician/official’s state of mind to negate the right
to determine what shall be done with one’s own
body is inconsistent and offends the principle that
“no right is held more sacred, or is more carefully
guarded, by the common law, than the right of
every individual to the possession and control of his
own person, free from all restraint or interference
of others, unless by clear and unquestionable
authority of law.” Id. at 342 n. 14 (citing Union Pac.
R. Co. v. Botsford, 141 U.S. 250, 251 (1891)). These
fundamental rights are gutted by an amorphous
analysis that defers to the intentions of the
physician.
The Second and Seventh Circuit’s adoption of
a subjective deliberate indifference standard
therefore nullifies the Fourteenth Amendment

-12right and the split should be resolved against these
circuits. It is illogical to use a subjective standard
from the doctor’s point of view to determine
whether a right constructed from the patient’s
point of view is violated. Patients depend on the
right to receive information reasonably necessary to
make an informed decision about their own medical
treatment; it is inappropriate and unworkable to
introduce a framework that allows the physician’s
intentions to negate that right. When this narrow
standard is applied through the subjective lens of
the doctor, the patient’s original right to receive
information and refuse treatment is lost.
As an example to illustrate how a deliberate
indifference requirement is untenable, under the
framework adopted by the Second and Seventh
Circuits, a doctor who accidently performs the
wrong surgery on a patient, of which the patient is
unaware, has somehow preserved the patient’s
right to informed consent to that same procedure.
This conclusion is incongruous with the right to
informed consent.
As such, requiring deliberate indifference in
the Fourteenth Amendment right to informed
consent analysis is unworkable for its abrogation of
the foundation of informed consent altogether.
More disturbing, the Seventh Circuit’s decision
extends beyond hypotheticals. It failed to find that
the physician was aware that a risk to informed
consent might exist even where a patient is
unconscious, despite a deliberate choice by the
physician to operate without discussing the
completely different procedure with the patient
than the procedure to which the patient consented.
It is difficult to imagine a more intuitive example
where a physician/official could infer a substantial
risk of harm exists to a patient’s right to informed

-13consent than when the patient is unable to receive
information about or refuse an elective treatment
because he is unconscious.
The decision below renders the Fourteenth
Amendment right to informed consent useless and
should be reversed. Under the standard adopted by
the Second and Seventh Circuits, violations of a
patient’s right to informed consent depend entirely
on the doctor’s perspective, and doctors could
willfully avoid information that might lead them to
become aware that a violation of the patient’s right
to informed consent might exist. Yet, whether or
not the doctor is aware, there is a clear violation of
“the principle that a competent person has a
constitutionally protected liberty interest in
refusing unwanted medical treatment” that
underlies Fourteenth Amendment jurisprudence.
Cruzan, 497 U.S. at 278; see also Sama, 669 F.3d at
591 n.13 (citing Cruzan). Therefore, this deliberate
indifference escape valve is an injurious distortion
of the law that nullifies a patient’s Fourteenth
Amendment right.
The decision below should be reversed on
failing to find deliberate indifference, even if it
applies, but its application to Fourteenth
Amendment analysis effectively nullifies the right
to informed consent altogether, a decision that will
impact every prisoner-patient in the Seventh and
Second Circuits. The Seventh Circuit’s decision to
incorporate a heightened deliberate indifference
standard ultimately led to a deprivation of Mr.
Knight’s Fourteenth Amendment rights. Id. at 13.
In sum, the petition should be granted and
the decision reversed for furthering a circuit split
that undermines the Fourteenth Amendment right
to informed consent.

V.

-14Requiring an Affirmative
Demonstration of Refusal at Summary
Judgment Was Procedurally Improper

The Seventh Circuit’s adoption of the Pabon
framework also introduced as an element whether
Knight would have refused the surgery in question.
App. A at 15a. Reliance on this factor is misguided
and improper. First, the factor is (outside Pabon)
foreign to the informed consent analysis. The
Second Circuit pulled this requirement from a
discordant opinion “holding that, to state a claim
for denial of the right to access the courts, a
prisoner must demonstrate that ‘the alleged
shortcomings in the library or legal assistance
program hindered his efforts to pursue a legal
claim.’” Pabon, 459 F.3d at 251 (citing Lewis v.
Casey, 518 U.S. 343, 351 (1996)). Such analysis
should be left out of an informed consent
framework. In addition, dismissal of Mr. Knight’s
claims is improper where the court required him to
have proven, as the nonmoving party at summary
judgment, an element of a test derived from the
analysis of a different circuit. Even if the Pabon
framework is applied, Mr. Knight need not have
proffered this at summary judgment, considering
the court at summary judgment must “draw all
inferences in the light most favorable to” him. App.
A at 2a. Therefore, in addition to disavowing a
deliberate indifference standard, the lower courts’
findings that Mr. Knight would not have refused
the treatment must be reversed.

-15CONCLUSION
For the foregoing reasons, Petitioner
DeWayne Knight respectfully requests this Court
grant his petition for writ of certiorari.
RESPECTFULLY SUBMITTED, this 13th day of
March, 2020

Emily J. Greb
Counsel of Record
Michelle M. Umberger
Michael R. Laing
PERKINS COIE LLP
33 East Main St., Suite 201
Madison, WI 53703-3095
(608) 663-7460
EGreb@perkinscoie.com
Counsel for Petitioner
DeWayne D. Knight

APPENDIX
TO
PETITION FOR A WRIT OF CERTIORARI

-1aAPPENDIX A
In the
United States Court of Appeals
For the Seventh Circuit
No. 19‐1740
DEWAYNE D. KNIGHT,
Plaintiff‐Appellant,
v.
THOMAS GROSSMAN, JR., M.D.
Defendant‐Appellee.
Appeal from the United States District Court for
the Eastern District of Illinois,
No. 1:16‐cv‐01644 — William E. Duffin,
Magistrate Judge.
ARGUED SEPTEMBER 17, 2019
DECIDED OCTOBER 31, 2019
Before FLAUM, ROVNER,
Circuit Judges.

and

SCUDDER,

SCUDDER, Circuit Judge. DeWayne Knight
is a prisoner who went under the knife for one
surgery and Dr. Thomas Gross-man, upon seeing
during the operation that he made the wrong
diagnosis, performed another. Knight brought suit
un-der 42 U.S.C. § 1983, alleging that Dr.

-2aGrossman acted with deliberate indifference to his
medical needs in violation of the Eighth
Amendment and disregarded his right to informed
consent
in
violation
of
the
Fourteenth
Amendment. The district court entered summary
judgment in Dr. Grossman’s favor on both claims.
In considering Knight’s due process claim, the
district court correctly observed that we have
never endorsed a right to informed consent or
pronounced a standard for proving a violation of
that right. We do so now by adopting the standard
the Second Circuit articulated in Pabon v. Wright,
459 F.3d 241 (2006). But because Knight did not
sufficiently prove the elements of either of his
claims, we a rm the district court’s judgment.
I
The summary judgment record supplies the
operative facts, and we draw all inferences in the
light most favorable to Knight. See Yochim v.
Carson, 935 F.3d 586, 588 (7th Cir. 2019).
While serving a sentence at the Waupun
Correctional Institution, DeWayne Knight sought
treatment for a basketball injury to his left knee.
Prison staﬀ referred Knight to Dr. Grossman, who
worked at a hospital that contracted with the
Wisconsin Department of Corrections to provide
medical services to state prisoners. Dr. Grossman
diagnosed Knight with a tear in his anterior
cruciate ligament and performed reconstruction

-3asurgery. This surgery was successful and is not at
issue in this litigation.
A few years later, Knight reinjured his knee
and returned to Dr. Grossman for treatment. Dr.
Grossman examined Knight, ordered x-rays, and,
without consulting an MRI, diagnosed him with a
torn ACL revision. Dr. Grossman oﬀered Knight
the option of undergoing a revision procedure to
repair the tear. In doing so, he issued a series of
disclaimers, explaining that the surgery was
elective and not strictly necessary, involved
certain risks, and did not bring with it a promise
that it would resolve Knight’s pain. Knight agreed
to the surgery and opted for a type of
reconstruction procedure that would require Dr.
Grossman opening both knees and transplanting
tissue from Knight’s healthy right knee into his
left knee.
On the day of the surgery, Knight signed a
consent form authorizing a “[r]evision left anterior
cruciate reconstruction with donor site from right
knee.” The form also provided that if “unforeseen
conditions” arose during the surgery which, in Dr.
Grossman’s judgment, required additional or
diﬀerent procedures, he had Knight’s consent to
take any further steps “deemed necessary and
advisable.” Upon opening Knight’s left knee, Dr.
Grossman was met with a diﬀerent condition than
he anticipated—Knight’s ACL was intact and
functional, not torn. But Dr. Grossman observed

-4aother issues with Knight’s left knee, including
surface damage to the cartilage (grade three
changes in the trochlea), narrowing of the space
between the two bumps at the end of the thigh
bone (dense stenosis on the lateral side on the
intercondylar notch, with a small bone fragment),
and bony overgrowths on the kneecap (patellar
osteophytosis). An experienced surgeon, Dr.
Grossman determined what he was seeing was
consistent with degenerative joint disease or
arthritis and would explain why Knight was
experiencing renewed pain and discomfort in his
left knee.
Dr. Grossman knew immediately how to
treat Knight. He could continue operating by using
the two small incisions that had already been
made to Knight’s left knee to perform a series of
arthroscopic surgical procedures. In medical
terms, a procedure known as a chondroplasty
would remove the damaged tissue and a second
procedure, a notchplasty, would enlarge the
narrowed gap to address the thigh-bone issue. As
for the kneecap, Dr. Grossman could perform an
abrasion arthroplasty—a procedure that required
(in simplified terms) shaving the bone to a degree
that stimulated the bone marrow to generate new
cartilage.
So Dr. Grossman found himself at a fork in
the road: with Knight unconscious on the
operating table, he could close Knight’s knee and

-5aend the operation or move forward with the
alternative procedures he had not discussed with
Knight but believed would help him. Dr. Grossman
chose to keep operating. He later explained that he
did so not only because he was confident the
alternative procedures would address Knight’s
condition, but also because it was unclear if or
when Knight, as a prisoner, would be available for
surgery again.
Knight woke up in the recovery room to find
that only his left knee had been operated on. No
one told Knight that Dr. Grossman had changed
course
mid-operation
and
performed
an
alternative surgery—one they had never
discussed. Upon Knight’s discharge from the
hospital, Dr. Grossman sent his operative note and
recovery instructions to the prison’s medical unit.
The note explained what Dr. Grossman had
observed, including Knight’s intact ACL, and the
procedures he performed, including the abrasion
arthroplasty. Dr. Grossman instructed that Knight
could stand and put whatever weight on his left
knee he was able to tolerate, even though recovery
from abrasion arthroplasty requires that the
patient avoid putting any weight on the knee so
that the new cartilage can mature. Three months
after the surgery, Knight had a follow-up
appointment with Dr. Grossman, where he finally
learned the details of his surgery. Knight’s knee
has since gotten worse.

-6aLitigation then followed. Knight brought
suit against Dr. Grossman under 42 U.S.C. § 1983,
claiming that the treatment he received for his
knee violated his Eighth and Fourteenth
Amendment rights. Dr. Grossman moved for
summary judgment on both claims, and the
district court granted his motion. Knight now
appeals.
II
We start with Knight’s claim that Dr. Grossman
acted with deliberate indiﬀerence to his medical
needs. We do so by taking our own fresh look at
the record evidence, construing all facts in
Knight’s favor. See Lavite v. Dunstan, 932 F.3d
1020, 1027 (7th Cir. 2019).
The Eighth Amendment prohibits the
“unnecessary and wanton infliction of pain,” which
includes “[d]eliberate indifference to serious
medical needs of prisoners.” Estelle v. Gamble, 429
U.S. 97, 103–04 (1976). To prevail on this claim,
Knight must prove not only that he suﬀered from
an objectively serious medical condition, but also
that a state oﬃcial responded with deliberate
indiﬀerence to the condition. See Whiting v.
Wexford Health Sources, Inc., 839 F.3d 658, 662
(7th Cir. 2016).
Dr. Grossman does not dispute that
Knight’s knee condition is an objectively serious

-7amedical condition or that he qualifies as a state
oﬃcial, leaving deliberate indiﬀerence the only
contested element. A prison oﬃcial is deliberately
indifferent only if he “knows of and disregards an
excessive risk to inmate health or safety.” Farmer
v. Brennan, 511 U.S. 825, 837 (1994). The inquiry
is subjective and requires that the official know
“facts from which he could infer that a substantial
risk of serious harm exists, and he must actually
draw the inference.” Whiting, 839 F.3d at 662.
“[E]vidence of medical negligence is not enough to
prove deliberate indiﬀerence.” Id.
Knight advances his Eighth Amendment
claim by insisting that Dr. Grossman was
deliberately indiﬀerent to his right to informed
consent. Framing the issue that way sends the
parties down the wrong analytical path, however.
Knight’s Eighth Amendment claim is one for
deliberate indiﬀerence to his serious medical
needs, not deliberate indiﬀerence to a right to
informed consent. Knight’s liberty interest in
informed consent to particular medical treatment
is the province of the Fourteenth Amendment.
Take, for example, a prisoner with a
malignant but treatable tumor. If a doctor
discovers and removes the tumor while treating a
hernia, nobody would say the doctor acted with
deliberate indiﬀerence to the prisoner’s medical
needs. To the contrary, the physician, albeit
without aﬀording the prisoner the right to choose a

-8acourse of medical care, saved the inmate’s life. Put
another way, at least in this case, whether Knight
consented to the abrasion arthroplasty is
irrelevant to his Eighth Amendment claim for
deliberate indiﬀerence to his medical needs.
On this record, we conclude that no
reasonable jury could find that Dr. Grossman
acted with deliberate indiﬀerence to Knight’s knee
condition. Nothing suggests, much less suﬃces to
show, that Dr. Grossman knew of and disregarded
a substantial risk to Knight’s condition or
somehow denied or delayed treatment. All
evidence points the opposite way: Dr. Grossman
came upon an unexpected diagnosis during
surgery, identified an alternative treatment
course, and then traveled that new path—all to
help Knight.
Knight urges a diﬀerent perspective on the
view that Dr. Grossman provided the wrong
treatment or even deficient care. Apart from
finding no footing in the facts, this theory faces an
uphill climb on the law, as, unlike in a malpractice
tort
claim,
medical
professionals
receive
significant deference when their judgments
encounter
challenges
under
the
Eighth
Amendment. See Wilson v. Wexford Health
Sources, Inc., 932 F.3d 513, 519 (7th Cir. 2019).
The standard is not whether a reasonable medical
professional would have made the same choice as
Dr. Grossman, but instead whether “no minimally

-9acompetent professional” would have done so. Id.
“[E]vidence that some medical professionals would
have chosen a diﬀerent course of treatment is
insuﬃcient to make out a constitutional claim.”
Petties v. Carter, 836 F.3d 722, 729 (7th Cir. 2016)
(en banc).
Knight failed to meet this demanding
standard. The record does not support a finding
that either the abrasion arthroplasty or the
inadequate recovery instructions deviated from
accepted medical standards. Knight’s own expert
opined only that Dr. Grossman’s failure to obtain a
new informed consent and discuss alternative
treatment opinions deviated from professional
standards. From there, though, the expert’s
opinions say nothing about whether the abrasion
arthroplasty, the failure to tell Knight about it, or
the recovery instructions aligned with medical
standards, let alone whether those choices were
such substantial deviations that a jury could find
deliberate indiﬀerence.
To be sure, expert testimony is not always
necessary. See id. Here, however, none of the
alleged errors are so obvious that a lay juror could
assess whether Knight carried his burden in
challenging Dr. Grossman’s treatment. In the end,
all we can say is that Knight may have marshaled
enough evidence to cast doubt on the wisdom of
Dr. Grossman’s choice to perform the abrasion
arthroplasty—a procedure that, at least in some

-10acircles, is considered controversial and outdated.
But most medical treatments carry risk, and
without evidence that Dr. Grossman’s choices
carried risk so high that no minimally competent
doctor would have done the same, Knight cannot
prevail. The district court was right to grant
summary judgment on the Eighth Amendment
claim.
III
We now venture into newer territory to
address Knight’s due process claim. The
Fourteenth
Amendment
protects
against
deprivations of life, liberty, and property without
due process of law. The Supreme Court has
recognized that “a competent person has a
constitutionally protected liberty interest in
refusing unwanted medical treatment.” Cruzan v.
Dir., Mo. Dep’t of Health, 497 U.S. 261, 278 (1990).
So, too, has the Court held that prisoners retain a
liberty interest in refusing forced medical
treatment while incarcerated. See Washington v.
Harper, 494 U.S. 210, 221–22 (1990).
From the interest in refusing unwanted
treatment, some courts have inferred the existence
of a corollary right—the right to receive
information required to decide whether to refuse
treatment. See, e.g., Pabon v. Wright, 459 F.3d
241, 249–50 (2d Cir. 2006); Benson v. Terhune, 304
F.3d 874, 884 (9th Cir. 2002); White v. Napoleon,

-11a897 F.2d 103, 113 (3d Cir. 1990). On at least two
occasions we have reserved judgment on the
existence of this right. See Cox v. Brubaker, 558 F.
App’x 677, 678–79 (7th Cir. 2014); Phillips v.
Wexford Health Sources, Inc., 522 F. App’x 364,
367 (7th Cir. 2013).
We now join all other circuits to have
considered the question in holding that prisoners
have a Fourteenth Amendment right to informed
consent. The right to refuse medical treatment
carries with it an implied right to the information
necessary to make an informed decision about
whether to refuse the treatment. Without crucial
information about the risks and benefits of a
procedure, the right to refuse would ring hollow.
Together, the right to refuse treatment and the
right to information required to do so constitute a
right to informed consent. This due process
entitlement has similarities to the familiar
common law doctrine with which it shares its
name, see Cruzan, 497 U.S. at 269–70 (describing
the common law roots of informed consent), but its
constitutional
origin
imposes
diﬀerent
requirements than an informed-consent tort claim.
A
The Second Circuit confronted the
requirements for what it termed a Fourteenth
Amendment “right to medical information” claim
in its 2006 decision in Pabon v. Wright, 459 F.3d

-12a241.
While
incarcerated,
William
Pabon
underwent a liver biopsy and medication therapy
for Hepatitis C. Id. at 245. He claimed that he was
not warned of the serious side eﬀects and brought
a § 1983 claim based on the violation of a
Fourteenth Amendment right to medical
information. Id. at 245–46. Relying on Cruzan and
Harper, the Second Circuit recognized a
constitutional entitlement to medical information
but emphasized that it was “far from absolute.” Id.
at 249–50. The court highlighted four limitations
on the right.
The first three limitations address what the
prisoner must prove to establish a violation of his
right to medical information. Two of the
limitations are necessary because the logical
source of the right to medical information is the
right to refuse treatment, so the right to medical
information exists only as far as needed to
eﬀectuate the right of refusal. Id. at 251. First, the
prisoner “must show that, had he received
information that was not given to him, he would
have exercised his right to refuse the proposed
treatment.” Id. Second, “[t]he prisoner is entitled
only to such information as a reasonable patient
would deem necessary to make an informed
decision.” Id. at 250. This limitation avoids
imposing an onerous burden of disclosing “all
conceivable information” about a treatment and
reduces the opportunity for the right to be used for
“obstructionist” gain. Id.

-13aThird, the prisoner must prove that the
defendant acted with deliberate indiﬀerence to his
right to refuse medical treatment. Id. at 251.
Neither negligence nor gross negligence is enough
to support a substantive due process claim, which
must be so egregious as to “shock the conscience.”
See County of Sacramento v. Lewis, 523 U.S. 833,
848–49 (1998); McDowell v. Vill. of Lansing, 763
F.3d 762, 766 (7th Cir. 2014). In selecting
deliberate indiﬀerence as the appropriate state of
mind requirement as opposed to a more stringent
intentionality standard, the Second Circuit relied
on the Supreme Court’s observation in Lewis that
“liability for deliberate indiﬀerence to inmate
welfare rests upon the luxury enjoyed by prison
officials of having time to make unhurried
judgments, upon the chance for repeated
reflection, largely uncomplicated by the pulls of
competing obligations.” 523 U.S. at 853. The Court
reasoned that in this context of “such extended
opportunities to do better” and “protracted failure
even to care, indiﬀerence is truly shocking.” Id.
This element is the one Knight more
vigorously contests, arguing that imposing a
deliberate indiﬀerence requirement inappropriately “collapses the distinct right to informed
consent
granted
under
the
Fourteenth
Amendment into the prohibition against deliberate
indiﬀerence to a prisoner’s serious medical needs
provided for under the Eighth Amendment.” We

-14adisagree. Knight’s position misses a key
distinction, which hinges on what the defendant
must be deliberately indiﬀerent to. In an Eighth
Amendment claim, the question is whether the
defendant was deliberately indiﬀerent to the
prisoner’s serious medical need. But here, in a
Fourteenth Amendment due process claim, we ask
whether the defendant was deliberately indiﬀerent
to the prisoner’s right to refuse treatment. Though
both require deliberate indiﬀerence, the inquiries
are distinct.
Stepping back illuminates the distinction. A
physician is deliberately indiﬀerent to a patient’s
right to refuse treatment if the doctor subjectively
knows that the patient did not consent to the
treatment or that the patient would want to know
the medical information being withheld in order to
decide whether to refuse the treatment. But a
physician can be deliberately indiﬀerent to a
prisoner’s right to refuse treatment without being
deliberately indiﬀerent to his medical needs. Our
tumor example shows as much.
The final limitation the Second Circuit
outlined in Pabon is a safety valve of sorts—
allowing the right to medical information to give
way when outweighed by a countervailing state
interest. A prisoner’s right to refuse medical
treatment can be infringed by a prison regulation
that is “reasonably related to legitimate
penological interests.” Harper, 494 U.S. at 246

-15a(quoting Turner v. Safley, 482 U.S. 78, 89 (1987)).
A common example is when forced medication is
needed to avoid the spread of contagious disease or
to quell disruptive behavior. As the Second Circuit
explained, “[i]f legitimate penological interests
dictate that a particular treatment must be
administered even if the prisoner would have
refused it, then because there is no constitutional
right to refuse treatment, there is no corollary
right to be informed about the treatment.” Pabon,
459 F.3d at 252.
B
We agree with the Second Circuit’s
reasoning and adopt the Pabon standard. A
prisoner’s claim of the violation of his right to
informed consent is evaluated under a two-step
inquiry. The prisoner must first establish that his
right to informed consent was violated. To do this,
the prisoner must prove that (1) he was deprived
of information that a reasonable patient would
deem necessary to make an informed decision
about his medical treatment, (2) the defendant
acted with deliberate indiﬀerence to the prisoner’s
right to refuse treatment, and (3) if the prisoner
had received the information, he would have
refused the treatment. If the prisoner establishes
that his right to informed consent has been
violated, we then take the second and final step of
balancing the prisoner’s right to informed consent
against countervailing state interests. Liability

-16aarises only if, in the end, the prisoner’s right
outweighs the state interests.
C
We question whether Knight has suﬃciently
shown that Dr. Grossman was deliberately
indiﬀerent to his right to refuse treatment,
particularly given the scope of the consent form.
But we can stop short of answering that question
because, at the very least, Knight failed to show
that he would have refused the only procedure he
contests (the abrasion arthroplasty) had he been
fully informed. Knight’s express position below
was that he “may well have” chosen a diﬀerent
treatment. Even if he had submitted that view in a
sworn aﬃdavit, which he did not, it would have
fallen short: saying he may have refused
treatment is not the same as saying he would
have. With this failure of proof, the district court
properly granted Dr. Grossman summary
judgment.
For these reasons, we AFFIRM.

-17aAPPENDIX B
UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
DEWAYNE KNIGHT,
Plaintiff,
v.

Case No. 16-cv-1644

DR. THOMAS GROSSMAN, JR.,
Defendant
_______________________________________________
DECISION AND ORDER
_______________________________________________
Plaintiff DeWayne Knight is proceeding
against defendant Dr. Thomas Grossman, Jr., on a
claim that Dr. Grossman violated his Eighth and
Fourteenth Amendment rights. Specifically, he
claims that Dr. Grossman was deliberately
indifferent to his serious medical need and
violated his Fourteenth Amendment substantive
due process rights by failing to get informed
consent to perform a surgical procedure. The court
recruited pro bono counsel to help Knight draft an
amended complaint and then to represent him
through discovery and summary judgment. Dr.
Grossman has moved for summary judgment.

-18aThe court has jurisdiction over this action
pursuant to 28 U.S.C. § 1331 because the matter
arises under federal statutes. Venue is proper
under 28 U.S.C. § 1391. The parties have
consented to United States magistrate judge
jurisdiction pursuant to 28 U.S.C. § 636(c) and
General Local Rule 73 (E.D. Wis.).
1. Summary Judgment Standard
“The court shall grant summary judgment if
the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled
to judgment as a matter of law.” Fed. R. Civ. P.
56(a); see also Anderson v. Liberty Lobby, Inc., 477
U.S. 242, 248 (1986); Celotex Corp. v. Catrett, 477
U.S. 317, 324 (1986); Ames v. Home Depot U.S.A.,
Inc., 629 F.3d 665, 668 (7th Cir. 2011). “Material
facts” are those under the applicable substantive
law that “might affect the outcome of the suit.” See
Anderson, 477 U.S. at 248.
A dispute over
“material fact” is “genuine” if “the evidence is such
that a reasonable jury could return a verdict for
the nonmoving party.” Id.
A party asserting that a fact cannot be or is
genuinely disputed must support the assertion by:
(A) citing to particular parts of materials in the
record, including depositions, documents,
electronically stored information, affidavits or
declarations, stipulations (including those

-19amade for purposes of the motion only),
admissions, interrogatory answers, or other
materials; or
(B) showing that the materials cited do not
establish the absence or presence of a genuine
dispute, or that an adverse party cannot
produce admissible evidence to support the
fact.
Fed. R. Civ. P. 56(c)(1). “An affidavit or declaration
used to support or oppose a motion must be made
on personal knowledge, set out facts that would be
admissible in evidence, and show that the affiant
or declarant is competent to testify on the matters
stated.” Fed. R. Civ. P. 56(c)(4).
2. Relevant Facts
This section is taken from both Knight’s
responses to Dr. Grossman’s proposed findings of
fact and Dr. Grossman’s responses to Knight’s
proposed findings of fact. (ECF Nos. 47 and 54.)
At all times relevant, Dr. Grossman was
licensed to practice medicine as an orthopedic
surgeon in the state of Wisconsin. (ECF No. 47, ¶
1; ECF No. 54, ¶ 1.) He was employed by Agnesian
Healthcare at the time he performed the surgery
at issue in this case. (ECF No. 47, ¶ 2.) Agnesian,
which ran Waupun Memorial Healthcare, and the
Wisconsin Department of Corrections (DOC) had a
contract to provide medical care to DOC inmates.

-20a(Id., ¶¶ 94, 95, 106; ECF No. 54, ¶ 4.) Nearly 80
percent of Dr. Grossman’s practice consisted of
inmates of the DOC. (Id., ¶ 4.)
The care of DOC inmate patients by outside
consultant providers—like Dr. Grossman—is
scheduled and approved by the inmate patient’s
DOC medical care provider. (ECF No. 47, ¶ 79.)
Any medical “orders” Dr. Grossman issues in
conjunction with his care of a DOC inmate patient
are viewed as “recommendations” by the DOC,
which might be implemented, ignored, or changed
by an inmate patient’s DOC medical provider at
that provider’s discretion. (Id., ¶ 84.) Once an
inmate patient is discharged and returned to the
care of the DOC, the outside consultant has no
further control over the care provided to that
inmate patient. (Id., ¶ 80.)
Knight saw Dr. Grossman for the first time
on October 14, 2009, after injuring his knee
playing basketball. (ECF No. 47, ¶ 6; ECF No. 54,
¶ 2.) After examination, Dr. Grossman offered
Knight an elective knee surgery to reconstruct his
anterior cruciate ligament (ACL). (ECF No. 47, ¶¶
6-7.) Dr. Grossman referred Knight back to his
institution for surgery approval. (Id., ¶ 10.) Knight
did not see Dr. Grossman again until July 8, 2010,
when his DOC care providers referred him back
for follow up. (Id., ¶ 11.) Dr. Grossman reviewed
the previously taken MRI study and examined
Knight; he again concluded that ACL surgery was

-21aappropriate. (Id., ¶ 12; ECF No. 54, ¶ 5.) This
time, Knight was approved for surgery, which took
place at Waupun Memorial Hospital on July 26,
2010. (ECF No. 47, ¶¶ 14-15.)
Knight says he had no residual pain or
other problems with his knee until 2012. (ECF No.
54, ¶¶ 6-7.) Knight saw Dr. Grossman again on
February 14, 2013, after being referred by his
DOC medical providers for complaints of
unsteadiness and popping in the knee after coming
“down in an awkward way” while playing
basketball in August 2011. (ECF No. 47, ¶¶ 21-22.)
After reinjuring his knee, Knight underwent some
conservative
treatment,
including
physical
therapy. (Id., ¶ 23.) When Knight saw Dr.
Grossman in February 2013, Dr. Grossman
ordered x-rays, performed a physical exam, and
concluded that Knight had a torn ACL revision.
(Id., ¶¶ 24-25.) He did not order an MRI. (ECF No.
54, ¶ 8.) Dr. Grossman offered Knight an elective
revision procedure. (ECF No. 47, ¶ 25.) Dr.
Grossman discussed Knight’s graft options—
allograft versus autograft—and offered no
promises or guarantees that it would completely
resolve his complaints. (Id., ¶ 27; see also ECF No.
54, ¶¶ 9-10.) In addition, Dr. Grossman offered his
typical preoperative patient discussion, which,
although not verbatim, would have been
something like the following:

-22aI think you have an ACL tear. Nothing
needs to be done. If we don’t do anything,
you will not die, and your leg will not fall
off. This will be the way that it is. If you’d
like to, there is an elective operation. It has
risks which are separate and distinct from
that of the anesthetic. The risks include,
but are not limited to, bleeding, infection,
damage to nerves and blood vessels, scar,
swelling, stiffness, inability to relieve your
complaints and the need for further
interventions. I am not going to offer any
specific promises or make any guarantees.
If you’d like me to do this, I would be very
interested in doing it for you. I will do the
best I can. I will take care of you for as long
as you want me to, but that’s it. Surgeons
don’t make any promises, and I don’t
promise myself lunch anymore.
(ECF No. 47, ¶ 28.)
When Knight told Dr. Grossman that he
wanted to proceed with the surgery (the autograft
procedure), Dr. Grossman referred him back to his
institution for DOC approval. (ECF No. 47, ¶ 29;
ECF No. 54, ¶ 11.) Knight returned to Dr.
Grossman on May 13, 2013, for the surgery. (ECF
No. 47, ¶ 30.) As of that date, Knight had
degenerative
disc
disease
(particularly,
patellofemoral joint disease) in his left knee, which
can cause pain, stiffness, “grinding,” “crushing,”

-23a“clicking,” and “popping,” as well as difficulty
squatting and bending. (Id., ¶¶ 31-34.) Patients
might also experience anterior knee pain,
quadriceps weakness, and knee instability. (Id., ¶
35.)
Before surgery, Knight signed a consent
form in which he consented to the following:
I hereby authorize Thomas Grossman,
M.D. and whomever they might designate
as their assistants, to perform upon myself,
DeWayne Knight, the following procedures:
Revision
left
anterior
cruciate
reconstruction with donor site from right
knee and to do such other diagnostic and
therapeutic procedures as are in his/her
and/or
their
professional
judgment
necessary and desirable. This includes but
is not limited to procedures involving
anesthesia, radiology and pathology. If any
unforeseen conditions arise in the course of
this procedure which in the professional
judgment of the physician listed above
requires procedures in addition to or
different from those now contemplated, I
further request and authorize them to do
whatever is deemed necessary and
advisable.
(ECF No. 47, ¶¶ 36, 38; see also ECF No. 54, ¶ 12.)
The contemplated surgery, an ACL revision in the

-24aleft knee, required both of Knight’s knees to be
opened surgically and healthy tissue harvested
from his unaffected right knee implanted in his
damaged left knee. (ECF No. 47, ¶ 40.)
Once Dr. Grossman started the surgery, he
found that Knight’s ACL was not, in fact, torn.
(ECF No. 47, ¶ 42.) Rather, he found a
“constellation of pathology” that included grade
three changes in the trochlea, significant patellar
osteophytosis, and dense stenosis on the lateral
side on the intercondylar notch with a small bone
fragment that were consistent with degenerative
joint disease or arthritis. (Id., ¶¶43-44; ECF No.
54, ¶ 13.) Dr. Grossman was aware that these
findings would explain the symptoms of which
Knight complained, including pain, clicking, and
popping in the knee. (ECF No. 47, ¶ 45.) Knight’s
previous injury as a teenager made it more likely
that he would experience degenerative joint
changes. (Id., ¶¶46-47.)
Dr. Grossman knew, based on his
experience as an orthopedic surgeon, that the
pathology he observed for the first time
intraoperatively could be addressed through a
series of arthroscopic surgical procedures,
performed through the two small incisions
(approximately four to five millimeters in length)
that were already in use. (ECF No. 47, ¶ 48.) He
had to choose between attempting to address the
observed pathology or closing the knee surgically

-25aand returning Knight to his institution, with the
pathology unaddressed. (Id., ¶ 52.) In deciding
what to do, Dr. Grossman considered the fact that,
because Knight was in DOC custody, Dr.
Grossman could not control when or if Knight
would again have access to surgery. (ECF No., 47
¶ 53.) He decided to move forward, performing a
chondroplasty
of
the
trochlea,
revision
notchplasty, and abrasion arthroplasty of the
patella. (Id., ¶ 49; ECF No. 54, ¶ 14.) Dr.
Grossman did not conduct a separate informed
consent discussion or explanation of the
procedures with Knight before doing so. (ECF No.
54, ¶ 19.) Dr. Grossman cleaned loose cartilage
flaps and abraded the damaged surface. (Id., ¶ 18.)
The parties dispute when Dr. Grossman
made Knight aware that his ACL was intact and
that he had found evidence of arthritis that he
addressed during surgery. (ECF No. 47, ¶ 54.) Dr.
Grossman contends that he told Knight after
surgery that he had found no ACL tear but did
find evidence of arthritis. (Id., ¶ 56; see also ECF
No. 54, ¶ 35.) Knight contends that he was
provided with no details about the procedures Dr.
Grossman performed until his post-op follow up
appointment in August 2013. (ECF No. 54, ¶ 39.)
On August 13, 2013, the DOC returned
Knight for a surgical follow up visit with Dr.
Grossman’s nurse practitioner. (ECF No. 47, ¶ 59.)
It’s unclear whether Knight saw Dr. Grossman

-26aduring this visit. However, Knight was told (by
whom the parties do not say) that Dr. Grossman
found an intact ACL but also found signs of
patellofemoral joint degenerative disease. (Id., ¶
60.) The plan for Knight’s further care was
strengthening and physical therapy and to follow
up in one month. (Id., ¶¶ 61-62.) Knight, however,
elected not to return to see Dr. Grossman. (Id., ¶
62.)
The parties agree that the diagnostic
arthroscopy, the synovectomy (trimming of the
synovium with a “sucker/shaver” device), and the
debridement
chondroplasty
Dr.
Grossman
performed
were
reasonable
under
the
circumstances and did not require additional
informed consent. (ECF No. 47, ¶¶ 73-75.)
However, Knight and his expert witness, Dr. Mark
Hutchinson,
contend
that
the
abrasion
arthroplasty was unreasonable and required an
additional informed consent discussion. (Id., ¶ 75.)
3. Analysis
Upon screening of Knight’s amended
complaint the court allowed him to proceed with
the following claims:
Knight may proceed with a deliberate
indifference claim against Grossman based
on his allegations that he misdiagnosed
Knight’s injury, failed to inform Knight of

-27athe misdiagnosis, and unilaterally chose to
perform procedures on Knight’s knee
without regard to the risks the procedures
posed to Knight. Knight may also proceed
on a substantive due process claim against
Grossman based on his allegations that
Grossman failed to obtain his informed
consent before performing the procedures on
his knee.
(ECF No. 25 at 5.)
3.1
Deliberate Indifference to a Serious
Medical Need
Prison
officials
violate
the
Eighth
Amendment’s proscription against cruel and
unusual punishment when their conduct
demonstrates “deliberate indifference to serious
medical needs of prisoners.” Rasho v. Elyea, 856
F.3d 469, 475 (7th Cir. 2017) (citing Estelle v.
Gamble, 429 U.S. 97, 104 (1976)). “To determine if
the Eighth Amendment has been violated in the
prison medical context, we perform a two-step
analysis, first examining whether a plaintiff
suffered from an objectively serious medical
condition, and then determining whether the
individual was deliberately indifferent to that
condition.” Petties v. Carter, 836 F.3d 722, 727-28
(7th Cir. 2016.) Deliberate indifference requires
that a defendant actually know about yet
disregard a substantial risk of harm to an inmate’s

-28ahealth or safety. Id. at 728. “The standard is a
subjective one: The defendant must know facts
from which he could infer that a substantial risk of
serious harm exists and he must actually draw the
inference.” Zaya v. Sood, 836 F.3d 800, 804 (7th
Cir. 2016).
The Court of Appeals for the Seventh
Circuit has “consistently held that neither a
difference of opinion among medical professionals
nor even admitted medical malpractice is enough
to establish deliberate indifference.” Zaya, 836
F.3d at 805. “By definition a treatment decision
[that is] based on professional judgment cannot
evince deliberate indifference because professional
judgment implies a choice of what the defendant
believed to be the best course of treatment. A
doctor who claims to have exercised professional
judgment is effectively asserting that he lacked a
sufficiently culpable mental state, and if no
reasonable jury could discredit that claim, the
doctor is entitled to summary judgment.” Id. “A
medical professional acting in his professional
capacity may be held to have displayed deliberate
indifference only if the decision by the professional
is such a substantial departure from accepted
professional judgment, practice, or standards, as
to demonstrate that the person responsible
actually did not base the decision on such a
judgment.” Sain v. Wood, 512 F.3d 886, 895 (7th
Cir. 2008) (internal quotation marks omitted).

-29aDr. Grossman does not dispute that Knight
had a serious medical condition. Thus, the only
issue is whether he was deliberately indifferent to
that condition. Dr. Grossman argues that Knight
cannot show that any of his actions amounted to
deliberate indifference. Specifically, he argues that
his treatment decisions were within professional
standards, that his decisions are owed deference,
and that a disagreement between professionals as
to the appropriate treatment does not constitute
deliberate indifference.
Knight does not offer evidence that Dr.
Grossman misdiagnosed his injury. It appears he
has abandoned that claim. It does not appear that
Knight has abandoned his claim that Dr.
Grossman’s failure to inform him of the alleged
misdiagnosis until months after the surgery fell
below the applicable standard of care. However, he
offers no evidence to support that claim. His
expert witness, Dr. Hutchinson, does not so opine,
nor does any other witness. Thus, Dr. Grossman is
entitled to summary judgment on those claims.
That leaves Knight’s claim that Dr.
Grossman acted with deliberate indifference by
performing a different surgery than that to which
he consented. Knight’s position is that, upon
learning that Knight’s ACL was not torn, Dr.
Grossman should have stopped the surgery so that
he could have a discussion with Knight about the
risks associated with abrasion arthroplasty to

-30aaddress the arthritis that Dr. Grossman
discovered. Knight does not contend that, had Dr.
Grossman had that discussion with him, he would
have refused to consent to the abrasion
arthroplasty. He argues only that he “may well
have chosen” more conservative treatment options
for arthritis. (ECF No. 45 at 25.)
Knight’s expert witness, Dr. Hutchinson,
opines only that the failure to obtain Knight’s
informed consent to perform the abrasion
arthroplasty constituted “a departure from
accepted medical standards.” (ECF No. 44-1 at 1.)
But “[t]o infer deliberate indifference on the basis
of a physician’s treatment decision, the decision
must be so far a field of accepted professional
standards as to raise the inference that it was not
actually based on a medical judgment.” Norfleet v.
Webster, 439 F.3d 392, 396 (7th Cir. 2006)
(internal citation omitted). Stated simply, the
decision must “substantially depart from accepted
medical practice.” Harper v. Santos, 847 F.3d 923,
928 (7th Cir. 2017). Knight has presented no
evidence that Dr. Grossman’s decision to proceed
with the abrasion arthroplasty without first
getting Knight’s consent substantially departed
from accepted medical practice. See Whiting v.
Wexford Health Sources, Inc., 839 F.3d 658, 662-63
(7th Cir. 2016) (affirming district court’s grant of
summary judgment for the defendant when “no
expert testified that [defendant’s] chosen course of
treatment was a substantial departure from

-31aaccepted medical judgment, and the decision was
not so obviously wrong that a layperson could
draw the required inference about the doctor’s
state of mind without expert testimony.”).
Without evidence that Dr. Grossman’s
decision to perform the abrasion arthroplasty
substantially departed from accepted medical
standards, Knight has only shown that Dr.
Hutchinson disagrees with Dr. Grossman’s
decision. That is not enough to create a genuine
issue of material fact as to whether Dr. Grossman
was deliberately indifferent to Knight’s serious
medical need. Berry v. Peterman, 604 F.3d 435,
441 (7th Cir. 2010) (deliberate indifference claim
requires more than disagreement with a doctor’s
medical judgment). And, as in Whiting, Dr.
Grossman’s decision to proceed with the surgery
was not so obviously wrong that a layperson,
without the benefit of expert testimony, could
draw the required inference about Dr. Grossman’s
state of mind. Dr. Grossman states that he
performed the abrasion arthroplasty to address
the conditions he found during surgery, conditions
that he concluded would explain the symptoms of
which Knight was complaining. (ECF No. 37, ¶
34.) In doing so, he considered a number of factors,
including that Knight reported being in pain and
that the degenerative joint disease could be
addressed through a series of common procedures,
each of which would be less invasive that the one
(an ACL revision) that Knight had consented to.

-32a(Id., ¶ 41.) Because Knight was in the custody of
the DOC, Dr. Grossman had no control over when
or if Knight would ever again have a chance to
have the surgery that Dr. Grossman concluded he
needed. (Id.)
In short, based on the record before this
court, no reasonable jury could infer that Dr.
Grossman’s decision to proceed with the abrasion
arthroplasty was made with the mental state
necessary to show that he acted with deliberate
indifference to Knight’s serious medical needs.
This court offers no opinion as to whether Dr.
Grossman’s
conduct
constituted
medical
malpractice. Rather, the court concludes here only
that it did not violate Knight’s Eighth Amendment
rights. As a result, Dr. Grossman is entitled to
summary
judgment
on
Knight’s
Eighth
Amendment claim.
3.2 Due Process
The Court of Appeals for the Seventh
Circuit has not explicitly endorsed a due process
claim based on a lack of informed consent,
although it has discussed such a claim. See
Phillips v. Wexford Health Sources, Inc., 522 Fed.
Appx. 364, 367 (7th Cir. 2013), and Cox v.
Brubaker, 558 Fed. Appx. 677, 678–79 (7th Cir.
2014). In Phillips, the Seventh Circuit affirmed
the dismissal of a claim based on the alleged lack
of informed consent of side effects from a

-33aparticular drug, concluding that the plaintiff had
not alleged that the risks of developing the side
effects were substantial enough that a reasonable
patient would be expected to be apprised of them.
522 Fed. Appx. at 367. Cox involved a claim for
lack of informed consent regarding the side effects
of the drug Pamelor. The Seventh Circuit stated
that the facts of that case did not “require us to
recognize, or decide the scope of, this due-process
right because Cox supplies no evidence of the
likelihood of Pamelor’s side effects.” Cox, 55 Fed.
Appx. at 679. Thus, in neither case did the court
decide whether to recognize a due process claim
based on the lack of informed consent.
Dr. Grossman first argues that he is
entitled to qualified immunity on Knight’s due
process claim. Contending that the Seventh
Circuit has held that a private party may raise a
defense of qualified immunity under certain
circumstances, he states that “Knight’s case
clearly falls within the class of cases in which
qualified immunity may be raised by a private
defendant.” (ECF No. 35 at 24.) Knight responds
that the Seventh Circuit “has repeatedly held
physicians of private corporations that contract
with the state to provide medical care for prisoners
are not entitled to assert qualified immunity.”
(ECF No. 45 at 17.)
In Richardson v. McKnight, 521 U.S. 399
(1997), the Supreme Court held that employees of

-34aa private prison management firm are not entitled
to invoke qualified immunity. In Filarsky v. Delia,
566 U.S. 377, 393–94 (2012), the Supreme Court
held that an attorney hired by a municipality to
conduct its business of investigating a potential
wrongdoing was entitled to invoke qualified
immunity. However, Filarsky did not overrule
Richardson. According to the Seventh Circuit, “the
Filarsky Court reaffirmed the holding of
Richardson categorically rejecting immunity for
the private prison employees there.” Currie v.
Chhabra, 728 F.3d 626, 631 (7th Cir. 2013), citing
Filarsky, 566 U.S. at 392-94. The Seventh Circuit
has held in other post-Filarsky cases that private
medical personnel in prisons are not afforded
qualified immunity. See, e.g., Estate of Clark v.
Walker, 865 F.3d 544, 551 (7th Cir. 2017); Rasho,
856 F.3d at 479; Petties, 836 F.3d at 734. Thus, Dr.
Grossman is not entitled to qualified immunity on
Knight’s due process claim.
Dr. Grossman next argues that Knight’s due
process claim must be dismissed because Knight
consented in writing “to allow Dr. Grossman to
take the actions that he did on May 15, 2013.”
(ECF No. 35 at 26.) Specifically, Dr. Grossman
argues that the written consent form, authorizing
him to perform whatever procedures which in his
professional judgment were necessary, desirable
and advisable, authorized him to perform the
abrasion arthroplasty.

-35aKnight
argues
that
the
abrasion
arthroplasty procedure was not necessary,
desirable, or advisable. According to Knight,
abrasion arthroplasty is a controversial and
outdated procedure with benefits and risks
completely different than an ACL reconstruction.
(ECF No. 45 at 16.) According to Knight’s expert
witness, Dr. Hutchinson, an abrasion arthroplasty
is an elective procedure. (ECF No. 48, ¶ 30.)
Knight contends that Dr. Hutchinson opines that
an abrasion arthroplasty was not necessary or
required (ECF No. 45 at 16), although the
proposed finding of fact that he cites does not
support such a statement.
The parties dispute the nature of abrasion
arthroplasty, the level of invasiveness, whether it
is considered controversial and outdated, the risks
it carries, and the rehabilitation it requires. (ECF
No. 54. ¶¶ 21-25.) Knight has established that a
genuine issue of material fact exists as to whether
the consent form he signed authorized Dr.
Grossman to perform the abrasion arthroplasty—
that is, whether the procedure was necessary,
desirable, or advisable. As such, the court cannot
grant Dr. Grossman summary judgment on
Knight’s due process claim on the ground that the
consent form authorized him to perform the
abrasion arthroplasty.
Dr. Grossman next argues that Knight’s due
process claim fails “because it is unsupported by

-36aevidence sufficient to establish deliberate
indifference.” (ECF No. 35 at 28.) He acknowledges
that, although the Seventh Circuit has not
endorsed a due process right to informed consent,
other circuits have. For example, as outlined in
this court’s screening order, the Second Circuit has
formulated such a cause of action that requires a
prisoner to “show that (1) government officials
failed to provide him with such information; (2)
this failure caused him to undergo medical
treatment that he would have refused had he been
so informed; and (3) the officials’ failure was
undertaken with deliberate indifference to the
prisoner’s right to refuse medical treatment.”
Pabon v. Wright, 459 F.3d 241, 246 (2nd Cir.
2006). If a plaintiff can show nothing more than
negligence, his claim will be defeated. Id. at 250
(“The simple lack of due care does not make out a
violation of either the substantive or procedural
aspects of the Due Process Clause of the
Fourteenth Amendment.”). Dr. Grossman argues
that because Knight cannot establish deliberate
indifference, his due process claim must be
dismissed. (ECF No. 35 at 29).
In response, citing Cox, Knight argues that
it is not clear whether the Seventh Circuit
requires a finding of deliberate indifference under
the Fourteenth Amendment. (ECF No. 45 at 15.)
In any event, he argues that Dr. Grossman’s
actions do meet the standard for deliberate
indifference. (ECF No. 45 at 15.)

-37aIn Cox, the Seventh Circuit expressly stated
that it was not deciding whether to join those
circuits that recognize as a matter of the
substantive component of due process that
prisoners have a right to such information as is
reasonably necessary to make an informed
decision to accept or reject proposed treatment.
558 Fed. Appx. at 679. Nonetheless, to the extent
the Seventh Circuit would recognize such a right,
this court has no reason for concluding that it
would use a different framework for showing a
violation of that right than the framework used by
the Second Circuit in Pabon. Applying that
framework here, Knight’s due process claim fails
for two reasons. First, as discussed above, he has
not submitted evidence establishing deliberate
indifference. Second, he has not demonstrated
that, had Dr. Grossman stopped the ACL surgery
in order to discuss with Knight the abrasion
arthroplasty risks and benefits, he (Knight) would
have refused to proceed with the abrasion
arthroplasty, all he says is that he might have
refused. (ECF No. 45 at 25.) That is not enough.
Because Knight has not established that he
would have refused to proceed with the abrasion
arthroplasty had Dr. Grossman had a discussion
with him about that surgery, and because Knight
has not established that Dr. Grossman was
deliberately indifferent in failing to have that
discussion with him, he cannot sustain a claim

-38athat Dr. Grossman violated his due process rights.
Thus, Dr. Grossman is entitled to summary
judgment on this claim as well.
Finally, the court will deny as moot Dr.
Grossman’s motion to exclude Knight’s expert’s—
Dr. Hutchinon’s—causation testimony.
IT IS THEREFORE ORDERED that Dr.
Grossman’s motion for summary judgment (ECF
No. 34) is GRANTED and this case is dismissed.
The Clerk of Court shall enter judgment
accordingly.
IT IS ALSO ORDERED that Dr.
Grossman’s motion to exclude the causation
testimony of plaintiff’s expert (ECF No. 40) is
DENIED AS MOOT.
This order and the judgment to follow are
final. A dissatisfied party may appeal this
decision to the Court of Appeals for the Seventh
Circuit by filing in this court a notice of appeal
within 30 days of the entry of judgment. See Fed.
R. App. P. 3, 4. I may extend this deadline if a
party timely requests an extension and shows good
cause or excusable neglect for not being able to
meet the 30‐day deadline. See Fed. R. App. P.
4(a)(5)(A).
Under certain circumstances, a party may
ask the court to alter or amend the judgment

-39aunder Federal Rule of Civil Procedure 59(e) or ask
for relief from judgment under Federal Rule of
Civil Procedure 60(b). Any motion under Federal
Rule of Civil Procedure 59(e) must be filed within
28 days of the entry of judgment. The court
cannot extend this deadline. See Fed. R. Civ. P.
6(b)(2). Any motion under Federal Rule of Civil
Procedure 60(b) must be filed within a reasonable
time, generally no more than one year after the
entry of the judgment. The court cannot extend
this deadline. See Fed. R. Civ. P. 6(b)(2).
Parties are expected to closely review all
applicable rules and determine, what, if any,
further action is appropriate in a case.
Dated at Milwaukee, Wisconsin this 21st
day of March, 2019.
______________________
WILLIAM E. DUFFIN
U.S. Magistrate Judge

-40aAPPENDIX C
United States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
December 17, 2019
Before
JOEL M. FLAUM, Circuit Judge
ILANA DIAMOND ROVNER, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 19-1740
DEWAYNE D. KNIGHT,
Plaintiff‐Appellant,
v.
THOMAS GROSSMAN, JR., M.D.
Defendant‐Appellee.
Appeal from the United States District Court
for the Eastern District of Wisconsin,
No. 2:16‐cv‐01644
William E. Duffin, Magistrate Judge.

-41aORDER
Plaintiff-appellant filed a petition for
rehearing and rehearing en banc on November 14,
2019, and on December 2, 2019, defendantappellee filed an answer to the petition. No judge
in regular active service has requested a vote on
the petition for rehearing en banc, and all
members of the original panel have voted to deny
panel rehearing.
The petition for rehearing and rehearing en
banc is therefore DENIED.

